   March 3, 2006




Acquisition
Air Force Procurement of 60K
Tunner Cargo Loader Contractor
Logistics Support
(D-2006-059)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
AFMC                  Air Force Materiel Command
FAR                   Federal Acquisition Regulation
MCLB                  Marine Corps Logistics Base
OEM                   Original Equipment Manufacturer
U.S.C.                United States Code
WRALC                 Warner Robins Air Logistics Center
                             INSPECTOR GENERAL
                           DEPARTMENTOFDEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-4704




                                                                           March 3,2006
MEMORANDUM FOR AIR FORCE OFFICE OF THE ASSISTANT SECRETARY
                 (ACQUISITION)
SUBJECT: Report on Air Force Procurement of 60K Tunner Cargo Loader Contractor
         Logistics Support (Report No. D-2006-059)

      We are providing this report for your information and use. We considered
management comments on a draft of this report in preparing the final report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.
        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. James L. Kornides at (6 14) 75 1- 1400 extension 2 11 or Mr. Curt W. Malthouse at
(6 14) 75 1- 1400 extension 230. See Appendix C for the report distribution. The team
members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:




                                      Assistant Inspector General
                                      Defense Financial Auditing
                                                Service
                Department of Defense Office of Inspector General
Report No.D-2006-059                                                       March 3, 2006
   (Project No. D2005-D000FJ-0169)

            Air Force Procurement of 60K Tunner Cargo Loader
                       Contractor Logistics Support

                                     Executive Summary

Who Should Read This Report and Why? Program managers and contracting officials
responsible for obtaining performance-based logistics support for equipment in DoD
should read this report. It discusses the approval and award of a sole source contract for
logistics support of a cargo loader used by the Air Force.

Background. On April 1, 2004, the Air Force awarded a sole source contract to Systems
& Electronics, Inc. for logistics support of the 60K Tunner cargo loader. Air Force
personnel use the 60K Tunner to load cargo onto large aircraft. The contract required
Systems & Electronics, Inc. to provide all of the logistics support needed for the cargo
loader for eight years at an estimated total cost of $158 million. On February 11, 2005,
the Acting Under Secretary of Defense (Acquisition, Technology, and Logistics)
requested that the DoD Office of Inspector General review the influence and decisions
made by Darleen Druyun, the then Principal Deputy Assistant Secretary of the Air Force
for Acquisition and Management, on the 60K Tunner logistics support contract.
Results. Instead of following Druyun’s recommendation to award a 33-year contract
valued at $1.7 billion ($51.5 million per year average costs), Warner Robins Air
Logistics Center contracting officials prepared a sole source justification and approval in
April 2003 and awarded an 8-year contract to Systems & Electronics, Inc. valued at
$158 million with a much lower projected annual cost of $19.8 million per year.
However, Druyun influenced $47.2 million in vehicle overhaul requirements included in
the contract by selecting Systems & Electronics, Inc. to be the source of repair.
Specifically, the overhaul requirements on the contract should have been solicited
separately so that a low-cost partnership with the Marine Corps Logistics Command (the
Marine Corps) could be considered in accordance with performance-based logistics
policy and section 2466, title 10, United States Code (10 U.S.C. 2466). Marine Corps
and Air Force cost analyses indicated that the Marine Corps could perform vehicle
overhauls for $27.5 million ($19.7 million less than Systems & Electronics, Inc.) over the
8-year term of the contract and for $57.6 million less over the 30-year life cycle of the
60K Tunner cargo loader. In addition, Air Force cost analyses showed that transportation
costs would be $3.7 million less over the 30-year life cycle using the Marine Corps
facilities. The Air Force needs to reconsider the award of $47.2 million in vehicle
overhaul requirements without Druyun’s influence. (See Appendix B for a summary of
the potential monetary benefits).

Management Comments. The Military Deputy, Office of the Assistant Secretary of the
Air Force (Acquisition) concurred with this report’s recommendations and planned to
take action to determine the best value approach for Tunner 60K loader vehicle
overhauls. He stated that the Air Force will work with the Marine Corps Logistics
Command to explore the potential for partnering agreements for the Tunner overhaul
workload. We feel that the Military Deputy, Office of the Assistant Secretary of the Air
Force (Acquisition) comments were fully responsive. Therefore, no additional comments
are required. See the Finding section of the report for a discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.




                                           ii
Table of Contents

Executive Summary                                                        i

Background                                                              1

Objectives                                                              2

Managers’ Internal Control Program                                      2

Findings
     60K Tunner Logistics Support Contract                               3

Appendixes
     A. Scope and Methodology                                           10
     B Potential Monetary Benefits                                      12
     C. Report Distribution                                             13

Management Comments
     Office of the Assistant Secretary of the Air Force (Acquisition)   15
Background
                                                    The Air Force uses the 60K Tunner
                                                    cargo loader to load and unload
                                                    cargo from military and
                                                    commercial transport aircraft. The
                                                    loader, managed by the Warner
                                                    Robins Air Logistics Center
                                                    (WRALC), can handle up to
                                                    60,000 pounds of cargo. The Air
                                                    Force procured 318 Tunner cargo
                                                    loaders between FYs 1997 and
                                                    2005.

                                                    On April 1, 2004, the Air Force
    awarded the original equipment manufacturer (OEM), Systems & Electronics,
    Inc., a sole source contract, valued at $158 million over eight years, to provide
    logistics support for the Tunner. The contract included $47.2 million for the
    OEM to complete 57 overhauls during the last three years of the contract
    (FYs 2009 through 2011).

    In November 2004 the Acting Under Secretary of Defense (Acquisition,
    Technology, and Logistics) chartered a study team to conduct a review of
    acquisition actions executed during the tenure (from 1993 to 2002) of Darleen
    Druyun as the Principal Deputy Assistant Secretary for the Air Force for
    Acquisition and Management. The team conducted the study in response to
    Druyun’s admission that she may have allowed personal interests to affect her
    judgment on acquisition decisions she made. The objective of the study was to
    determine whether decisions were consistent with DoD standards of integrity and
    sound business practices.

    The study team reviewed 407 acquisition actions and recommended that eight of
    them be further reviewed. The study team found evidence that Druyun appeared
    to have driven a sole source selection for Tunner logistics support without the
    benefit of such tools as analysis of alternatives or market survey data to fully
    substantiate the appropriateness of the decision.

    A sole source contract is one that can be awarded without full and open
    competition under provisions of section 2304 (c)(1), title 10, United States Code
    (10 U.S.C. 2304(c)(1)) as implemented by Federal Acquisition Regulation (FAR)
    Part 6.3, “Other Than Full and Open Competition.” FAR Part 6.3 prescribes
    policy and procedures for awarding contracts without full and open competition.
    According to the FAR, award of a sole source contract must be justified by
    sufficient facts and rationale and, as in the case of the Tunner logistics support
    contract, must be approved by the senior procurement executive of the agency—
    the Assistant Secretary of the Air Force (Acquisition).

    WRALC awarded the sole source logistics support contract to the OEM as a
    negotiated type contract as specified in FAR Part 15, “Contracting by
    Negotiation.” FAR Part 15 prescribes policies and procedures governing


                                         1
    competitive and noncompetitive negotiated acquisitions. According to
    FAR Subpart 15.000, “Scope of Part,” a negotiated contract is any contract
    awarded using other than sealed bidding procedures.

    On February 11, 2005, the Acting Under Secretary of Defense (Acquisition,
    Technology, and Logistics) requested that the DoD Office of Inspector General
    review the Tunner logistics support contract.


Objectives
    Our audit objective was to determine whether the 60K Tunner Logistics Support
    Contract was procured in accordance with the Federal Acquisition Regulation.
    Specifically, we determined whether Air Force contracting officials used an
    appropriate method and rationale for making a sole source determination for
    procuring contractor logistics support for the 60K Tunner cargo loader. See
    Appendix C for prior coverage related to the objectives.


Managers’ Internal Control Program
    Review of the managers’ internal control program was not an objective of the
    audit, and we did not complete a review of the program.




                                        2
           60K Tunner Logistics Support Contract
           Instead of following Darleen Druyun’s recommendation to award a
           33-year logistics support contract valued at $1.7 billion ($51.5 million per
           year average costs), Warner Robins Air Logistics Center contracting
           officials prepared a sole source justification and approval in April 2003
           and awarded an 8-year contract to the OEM, Systems & Electronics, Inc.,
           valued at $158 million with much lower projected annual costs of
           $19.8 million per year. However, Druyun’s source of repair decision in
           favor of the OEM influenced $47.2 million in vehicle overhaul
           requirements included as part of the 8-year contract. Specifically,
           contracting officials did not separately solicit the overhaul requirements
           included on the contract and did not consider a low-cost partnership with
           the Marine Corps Logistics Command (the Marine Corps) in accordance
           with performance-based logistics policy and 10 U.S.C. 2466. Marine
           Corps and Air Force cost analyses indicated that the Marine Corps could
           perform vehicle overhauls for $27.5 million ($19.7 million less than
           Systems & Electronics, Inc) over the 8-year term of the contract and for
           $57.6 million less over the 30-year life cycle of the 60K Tunner cargo
           loader. In addition, Air Force cost analyses showed that transportation
           costs would be $3.7 million less over the 30-year life cycle using the
           Marine Corps facilities. The Air Force needs to reconsider the award of
           $47.2 million in vehicle overhaul requirements without Druyun’s
           influence.


Development of the 60K Tunner Logistics Support Contract
    Planning for Tunner logistics support began in FY 1999 with the formation of a
    Tunner program office (the program office) integrated product team. From the
    early stages of planning, the program office was aware that Druyun wanted a
    long-term logistics support contract with the OEM, Systems & Electronics, Inc.
    Specifically, on October 29, 2002, the program office met with WRALC officials
    to discuss a logistics support contract for the Tunner. On October 31, 2002, two
    days after the acquisition strategy meeting, Druyun signed a memorandum,
    subject “Tunner Sole Source Long-Term Support,” that was addressed to the Air
    Force Tunner Program Executive Officer. In the memorandum Druyun wrote that
    the Air Force had made a commitment to award the OEM a long-term support
    contract if the OEM performed successfully in supporting fielded loaders. She
    implied that the contractor had performed successfully and was deserving of the
    long-term logistics support contract. We found no documents or written
    agreements to support this “commitment.”

    Justification and Approval Debate. The program office presented the
    October 31, 2002, memorandum to WRALC procurement officials as the basis for
    not introducing competition in the contract process. Some WRALC officials
    questioned the legality and propriety of not competing the contract without proper
    justification and approval. According to documents those officials provided to us,
    the “commitment” made to the OEM in the October 31, 2002, memorandum did



                                         3
    not justify a sole source selection and did not qualify as proper justification and
    approval.

    In response to the disagreement and upon its review, the WRALC Office of
    General Counsel recommended that any reference to Druyun be removed from the
    draft justification document because she lacked the legal authority to commit the
    Air Force to a long-term sole source contract.

    The program office and WRALC officials subsequently formed a working group
    to further assess the issues raised concerning the acquisition. The working group
    concluded that the proposed long-term contract was not appropriate and that the
    contract period should be shortened to allow possible competition for certain
    elements of the contract.


Contract Requirements
    WRALC officials bundled all of the logistics requirements, including material
    management, program support, accident repair, and depot overhaul, as an all or
    none work effort. Based on this approach they conducted market research for
    potential candidates for the logistics contract. WRALC subsequently determined
    that the only qualified source for all of the logistics support was the OEM.

    In April 2004 a logistics support contract was awarded to the OEM in accordance
    with FAR Part 15, “Contracting by Negotiation.” The Air Force specified, in the
    sole-source justification document, that the contract would have an 8-year term
    (basic contract period of one year plus seven option years) to procure the needed
    logistics support at a cost of $158 million. The Air Force wanted to extend the
    contract long enough to allow the OEM to complete vehicle overhauls during the
    last three years of the contract which is when the first overhauls would be
    required.

    Contract Elements. During the course of the original production contract, the
    OEM provided interim logistics support that included materiel management and
    program support functions. The logistics support contract awarded in FY 2004
    was expanded and included five distinct elements: materiel management, program
    support (sustaining engineering), accident repair, overhaul test, and vehicle
    overhaul. The estimated costs for each element were as follows:




                                          4
                  Contract Elements for FYs 2004-2011
                              (in millions)

               Support Element               Estimated Costs
               Materiel Management                $76.5
               Program Support                     25.1
               Accident Repair                      0.0*
               Overhaul Test                        9.2
               Vehicle Overhaul                    47.2
               Total                             $158.0

               *Costs to be determined


Justification and Approval. The justification document specifically cites
FAR 6.302-1, “Only One Responsible Source and No Other Supplies or Services
Will Satisfy Agency Requirements,” as authority for the sole source award.
FAR Subpart 6.303, “Justifications,” requires that each sole source justification
contain sufficient facts and rationale to justify the use of the specific authority
cited and requires a summary of applicable market research.

The Air Force market research identified the OEM and two other interested
non-Governmental sources. The Air Force rated the potential sources and
concluded that the two other interested sources were not sufficiently qualified to
satisfy all elements of the contract (materiel management, program support,
accident repair, overhaul test, and overhaul). Specifically, the justification
document states that the Tunner OEM is “the only known qualified source for this
requirement.”

The justification document was vetted in accordance with FAR Subpart 6.304,
“Approval of the Justification.” The justification document was approved by the
then Assistant Secretary of the Air Force (Acquisition) on June 12, 2003. The
justification document was also approved by the contracting officer, system
program director, buying office contracting official, product director, legal office,
competition advocate, senior center contracting official, and the program
executive officer. The contract award was not protested.

Although it completed the above steps to justify its source award, the Air Force
decision to award a sole source contract did not adequately consider that the
Marine Corps could complete the vehicle overhaul element at less expense. The
Air Force had completed the source of repair selection process in accordance with
DoD regulations and public law, and that process identified the Marine Corps
maintenance centers as an alternative repair site as discussed on the following
pages.




                                         5
Selecting the Vehicle Repair Site
     DoD Directive 4141.18, “Maintenance of Military Materiel,” March 31, 2004,
     requires that source of repair assignments employ merit-based selection
     procedures to select the best value among alternative sources. DoD Directive
     4141.18 also requires that non-core workload (such as the Tunner overhauls) be
     satisfied using competitive sourcing.

     Tunner Source of Repair. The Tunner program office director is responsible for
     the source of repair assignment process. In addition, the selection is subject to
     Air Force Materiel Command (AFMC) concurrence.

     The Air Force identified two potential sources of repair during the selection
     process: the OEM in West Plains, Missouri, and the Marine Corps maintenance
     centers in Albany, Georgia, and Barstow, California.

     Despite the diligence of the program office in identifying potential sources of
     repair, Druyun influenced the process. In a meeting held July 27, 2001, Druyun
     directed that the OEM be the source of repair. This eliminated the Marine Corps
     maintenance centers from consideration.

     Cost Benefit Analysis. The source of repair assignment process included a cost
     benefit analysis performed by the WRALC Comptroller Directorate. The results
     were provided to the Tunner program office on October 5, 2000. Specifically, the
     Comptroller Directorate determined that the Marine Corps Logistics Bases
     (MCLB) would provide a $57.6 million cost avoidance over the OEM based on a
     30-year life cycle. Over the course of the 8-year logistics support contract, the
     MCLB maintenance centers would avoid $19.7 million in overhaul costs over the
     OEM amount.

     Cost analysts in the Comptroller Directorate at WRALC also determined that use
     of the MCLB locations would avoid $3.7 million in transportation costs as
     compared to the OEM over the 30-year life cycle of the Tunner. MCLB officials
     told us that their Albany, Georgia, and Barstow, California, locations were better
     suited geographically to minimize transportation costs as compared to the OEM
     because the OEM is located in Missouri and, at the time of audit, 142 (45 percent)
     of the fielded Tunner cargo loaders were located overseas.

     MCLB officials told us that they are prepared and available to perform the Tunner
     vehicle overhaul maintenance. The Commander of MCLB Albany indicated he
     made this clear to the Tunner program office in an official memorandum dated
     February 28, 2001. MCLB officials told us that the Tunner program office
     notified them that the overhaul work would be competed once the program office
     had acquired the necessary technical data in FY 2005. However, WRALC
     awarded the contract in FY 2004 before the OEM produced the technical data.
     WRALC could exercise options to start the overhauls from FYs 2009 through
     2011 under the contract with the OEM, therefore, preventing the lower cost
     Marine Corps maintenance centers from competing until at least FY 2012.




                                         6
Employing the 50/50 Rule. The Tunner program director submitted a source of
repair recommendation to AFMC in May 2001 and initially recommended full
and open competition for contractor support. However, Druyun intervened and
directed that the OEM be the source of repair. As a result, the program director
issued a memorandum and a point paper on August 7, 2001, to amend the source
of repair recommendation to sole source instead of full and open competition.
The program director wrote in the point paper that the change was required
because Druyun directed that the OEM be chosen as the source of repair. AFMC
subsequently concurred with the sole source of repair recommendation.

On October 23, 2000, prior to the intervention, AFMC notified the program office
in an official memorandum that contracting out the Tunner vehicle overhaul
maintenance would be a potential violation of the 50/50 rule. We did not find
evidence of a response.

Known as the 50/50 rule, chapter 146 of 10 U.S.C. 2466 states that not more than
50 percent of funds made available in a fiscal year to a Military department or a
Defense agency for depot-level maintenance and repair workload may be used to
contract for the performance by non-Federal Government personnel.

The Tunner program director told us that he was not concerned about a potential
violation of the 50/50 rule because of the small size of the Tunner program. We
noted that the size of a program is not mentioned in the 50/50 rule.

50/50 Alternatives. MCLB officials told us that the OEM contacted them in
2001 to discuss potential partnering arrangements. However, we found no
evidence that the Air Force considered such arrangements for the 60K Tunner
workload.

Section 2474, title 10, United States Code provides an exemption to the 50/50
rule for non-Federal personnel performing depot maintenance at a Center of
Industrial and Technical Excellence (organic depot) if private industry provides
the personnel to a public-private partnership. Accordingly, DoD policy requires
program managers to include public-private partnering in their respective
strategies to sustain DoD materiel.

DoD Directive 4141.18, “Maintenance of Military Materiel,” March 31, 2004,
states that “Public-private partnering and other collaborative arrangements for
depot maintenance operations shall be employed whenever feasible and
beneficial.”

Additionally, DoD Directive 5000.1, “The Defense Acquisition System,”
May 12, 2003, requires program managers to develop performance-based logistics
strategies that incorporate the best use of public and private sector capabilities
through Government/industry partnerships in accordance with statutory
requirements. We found no evidence that the Air Force followed this guidance.




                                     7
Severability of Vehicle Overhaul Requirements
     We concluded that the last element of the contract, “Vehicle Overhaul,” was not
     sufficiently justified and should not have been awarded with the other elements of
     the logistics support contract. Specifically, the justification document states that
     the OEM is the only known qualified source to satisfy all of the contract
     requirements. This is contrary to the Air Force source of repair assessments (as
     previously discussed).

     Engineering assessments clearly show that the Air Force did not have an adequate
     rationale for justifying awarding the first 25 overhauls (FYs 2009 through 2010)
     to the OEM or the remaining 32 overhauls in FY 2011 as part of the logistics
     support contract. Engineering data show this part of the contract could be
     separately solicited. The contract statement of work states that the OEM will
     overhaul 25 vehicles to provide the information needed to develop overhaul
     instructions and technical documentation. However, WRALC engineers
     determined that a total of three vehicles would be sufficient to validate and verify
     the technical requirements (one for the contractor and two for Government
     proofing). They wrote, “There is no need for a large sample size of loaders which
     have been exposed to a wide range of environmental conditions.”

     Logistics support contract documents call for the OEM to overhaul another 32
     (57 total) vehicles in FY 2011. The justification document states that these OEM
     overhauls are needed to “bridge the gap” until future overhauls are competed in
     FY 2012. This justification does not consider that the Marine Corps was already
     identified in FY 2001 as an alternative source of repair and potentially there was
     no gap.

     We concluded that the Air Force did not adequately consider alternative sources
     of repair in accordance with 10 U.S.C 2474 and DoD guidance on performance-
     based logistics. The Air Force needs to sever the overhaul requirements from the
     existing logistics support contract for FYs 2009, 2010, and 2011 and consider
     establishing a partnering agreement with the Marine Corps in accordance with
     10 U.S.C. 2466 and 10 U.S.C. 2474.




                                          8
Recommendations and Management Comments
    We recommend that the Air Force Office of the Assistant Secretary (Acquisition):

           1. Sever $47.2 million in vehicle overhaul maintenance requirements
    resident in the 60K Tunner logistics support contract for option years 2009
    through 2011.

            Management Comments. The Military Deputy, Office of the Assistant
    Secretary of the Air Force (Acquisition) concurred, and stated that the
    $47.2 million is a program office estimate and has not been appropriated. He also
    stated that the Air Force will perform a detailed analysis to determine the overall
    best value approach prior to exercising the FY 2009 option, including exploring
    the potential for partnering agreements with the Marine Corps Logistics
    Command.

           2. Solicit the Tunner vehicle overhaul maintenance requirements and
    consider partnering agreements with the Marine Corps Logistics Bases in
    accordance with DoD Directive 4141.18, “Maintenance of Military Materiel,”
    March 31, 2004, and DoD Directive 5000.1, “The Defense Acquisition
    System,” May 12, 2003, to ensure compliance with 10 U.S.C. 2466.

            Management Comments. The Military Deputy, Office of the Assistant
    Secretary of the Air Force (Acquisition) concurred. He also stated that the Air
    Force will perform a detailed analysis to determine the overall best approach and
    the feasibility of teaming with the Marine Corps.




                                         9
Appendix A. Scope and Methodology
   We assessed whether Air Force procurement officials complied with procurement
   procedures as implemented by Federal Acquisition Regulations, Subpart 15,
   “Contracting by Negotiation,” and Subpart 6.3, “Other Than Full and Open
   Competition.” We also summarized requirements related to the source of repair
   assignment process as promulgated in DoD Directive 4141.18, “Maintenance of
   Military Materiel,” March 31, 2004, and assessed compliance with performance
   based logistics guidance as issued by DoD Directive 5000.1, “The Defense
   Acquisition System,” May 12, 2003. We also assessed whether Air Force
   procurement officials complied with depot maintenance requirements of
   10 U.S.C. 2466 (known as the 50/50 rule).

   We obtained procurement documents from Air Force and Marine Corps officials.
   We reviewed Air Force and Marine Corps documents related to the award of the
   60K Tunner logistics support contract. Specifically, we analyzed contract
   planning documents, official memoranda, legal assessments, e-mail documents,
   cost benefit analyses, justification and approval documents and other
   miscellaneous related documents to determine whether Air Force officials used an
   appropriate method and rationale for making a sole source determination for
   procuring contractor logistics support for the 60K Tunner cargo loader. Most
   documents were originally created during FYs 2000 and 2001, prior to the
   FY 2004 award of the logistics support contract.

   We reviewed cost benefit analyses performed by WRALC financial analysts that
   compared anticipated overhaul costs between the Marine Corps maintenance
   centers and the OEM. We concluded that the cost benefit analyses did show a
   $61.3 million potential monetary benefit for overhauls ($57.6 million) and
   transportation ($3.7 million) over the 30-year life cycle of the Tunner based on
   Marine Corps’ estimates. We did not verify the data used in the cost benefit
   analyses.

   We interviewed Air Force procurement officials, Tunner program officials,
   WRALC program managers, WRALC financial analysts, and Marine Corps
   maintenance center personnel.
   We performed this audit from April 2005 through November 2005 in accordance
   with generally accepted government auditing standards.

   We did not review the management control program.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the Weapon System Acquisition and DoD contract
   administration high-risk areas.




                                       10
Prior Coverage
    No prior coverage has been conducted on the 60K Tunner logistics support
    contract during the last 5 years.




                                      11
Appendix B. Summary of Potential
            Monetary Benefits
Recommendation
   Reference        Type of Benefit       Amount of Benefit          Account(s)

      1.         Maintenance Funds       $57.6 million over       Air Force
                 Put to Better Use.      the 30 year life cycle   Operations and
                                         of the 60K Tunner        Maintenance
                 Prevents contractor     Cargo Loader             Account
                 from charging current
                 contract for vehicle    ($19.7 million over
                 overhauls. Ensures      the future year
                 competition for low     defense plan)
                 cost alternative.


      2.         Transportation Funds    $3.7 million over the    Air Force
                 Put to Better Use.      30-year life cycle of    Operations and
                                         60K Tunner Cargo         Maintenance
                 Utilizes geographic     Loader                   Account
                 advantage of Marine
                 Corps maintenance       ($641 thousand over
                 centers.                the future year
                                         defense plan)




                                         12
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Commander, Marine Corps Logistics Command

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        14
Office of the Assistant Secretary of the Air Force
(Acquisition) Comments




                        15
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
James L. Kornides
Curt W. Malthouse
Colonel Richard L. Norman
John R. Williams
Benjamin M. Howison
Erin S. Hart
